No. 20-659
INTHE

~upreme QC.ourt .of tbe Wntteb ~tate~
LARRY THOMPSON,

Petitioner,

v.
POLICE OFFICER P AGIEL CLARK, SHIELD

#28472,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF FOR NATIONAL POLICE
ACCOUNTABILITY PROJECT AND INNOCENCE
NETWORK AS AMICI CURIAE SUPPORTING
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
4,547 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

Wilson-Epes Printing Co., Inc.

